CERTIFICATE OF SERVICE
NO. TBD
Charles R. Hunter
Petitioner(s)
v.
United States of America and Sterling Mortgage and Investment Company
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the CHARLES
R. HUNTER PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General of the United States
Room 5614, Dept of Justice
950 Pennsylvania Avenue
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for United States of America

Bruce Michael Gorosh
Finkel Whitefield Selik
32300 Northwestern Highway
Suite 200
Farmington Hills, MI 48334-1567
(248) 855-6500
bgorosh@fwslaw.com
Counsel for Sterling Mortgage and Investment
Company

Lucas DeDeus

September 27, 2019
SCP Tracking: Weininger-30500 Northwestern Highway-Cover White

